GUERRIERI, BARTOS & RoMaA, P.C.
1900 M Street, N.W.

SUITE 700
Wwasuinaton, D.C. 20036-3518
Joseph GUERRIERI, JR.

JerrREY A, BARTOS (202) 624-7400
ELIZABETH A. ROMA FACSIMILE: (202) 624-7420
et WWW.GECLAW.COM
MEGAN B. HavERN*

*ADMITTED ONLY IN ILLINOIS;
SUPERVISION BY
MEMBERS OF THE D.C, BAR.

May 28, 2021

Hon. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: Arthur Baisley v. International Association of Machinists
and Aerospace Workers, AFL-CIO, Case No. 20-1643

Dear Mr. Harris:

I represent Respondent International Association of Machinists & Aerospace Workers
(“IAM”), in the above-named matter. The Petition for Certiorari in this matter was docketed on
May 26, 2021, and Respondent’s Brief in Opposition is currently due Monday June 25, 2021.

Pursuant to Supreme Court Rule 30.4, I am writing to request a 30-day extension of time,
until Monday July 26, 2021, to file a Brief in Opposition. The extension is requested because we
are a small sized law firm, and I will require additional time to prepare and draft a response which
fully addresses the issues raised by Petitioner while also handling other preexisting professional
obligations in June and July.

Thank you for your attention to this matter.

Respectfully,

b_

Elizabeth A. Roma

ce: Frank D. Garrison, Counsel for Petitioner
Milton L. Chappell, Counsel for Petitioner
Danny Bickell, Deputy Clerk
